HHS/OIG, Audit - "Review of New Hampshire's Medicaid Disproportionate
Share Hospital Payments During Federal Fiscal Year 2004," (A-01-05-00001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of New Hampshire's Medicaid Disproportionate Share Hospital Payments During
Federal Fiscal Year 2004," (A-01-05-00001)
July 9, 2007
Complete
Text of Report is available in PDF format (1.23 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State agency claimed Medicaid
disproportionate share hospital (DSH) payments for fiscal year 2004 that did not
comply with the hospital-specific DSH limits imposed by Federal requirements and
the State plan.  Of the $194,145,507 that the State agency claimed, $123,494,571
was allowable.  However, the remaining $70,650,936 ($35,325,468 Federal share)
was unallowable.  We attribute the excess DSH payments to the State agencys
lack of policies and procedures to ensure that its methodology for developing
the cost-to-charge ratios used to calculate hospital-specific DSH limits
complied with Federal requirements and the State plan.
We recommended that the State agency (1) refund
$35,325,468 to the Federal Government, (2) work with CMS to review DSH payments
claimed after our audit period and refund any overpayments, and (3) establish
policies and procedures to ensure that it complies with Federal requirements and
the State plan in calculating future hospital-specific DSH limits.  The State
agency disagreed with these recommendations.